No. 20-1611

In the Supreme Court of the United States
HEALTHCARE DISTRIBUTION ALLIANCE,
ASSOCIATION FOR ACCESSIBLE MEDICINES,
and SPECGX LLC,
Petitioners,
v.
LETITIA JAMES and HOWARD A. ZUCKER,
in their respective official capacities as Attorney General and Commissioner of
Health of the State of New York,
Respondents.
CERTIFICATE OF COMPLIANCE

I, Michael B. Kimberly, counsel of record for petitioner Healthcare Distribution
Alliance and a member of the Bar of this Court, certify pursuant to Rule 33.1(h) of
the Rules of this Court that this reply brief for petitioners contains 2972 words,
excluding the parts of the brief that are exempted by Rule 33.1(d).

_______________________
Michael B. Kimberly

